INDEX TO THE APPENDIX
Opinion of the Panel of the United States Court of Appeals
for the First Circuit
(May 12, 2021) ............................................................................... Appendix A

Sena v. Kenneway, 997 F.3d 378 (2021)

Using the stay and abeyance procedure, a
petitioner who files a mixed federal habeas
petition containing both claims that were
exhausted in state court and claims that were not
exhausted may file motion to hold the petition
in abeyance and seek additional time, subject to
ce1tain preconditions, to exhaust his state-comt
remedies on the unexhausted claims, in order
to avoid defaulting on the one-year limitations

997F.3d378

United States Court of Appeals, First Circuit.
Dennis SENA, Petitioner, Appellant,

v.
Steven KENNEWAY, Superintendent,
MCI-Shirley, Respondent, Appellee.
No. 20-1471

period applicable to a habeas petition.
U.S.C.A. § 2254(b).

I

May 12, 2021
Synopsis
Background: Following affirmance on direct appeal of
petitioner's state-comt convictions for assault and battery by
means of a dangerous weapon causing serious bodily injmy,
and assault and battery by means of a dangerous weapon,
92 Mass .App .Ct. 1111, 94 N.E.3d 439, he filed petition for
federal habeas relief. The United States District Court for the
District of Massachusetts, Nathan iel M. Gmton, J., 2020 WL
1429849, dismissed the petition. Petitioner appealed.

[3)

state court.

(4)

West Headnotes (I 6)

Habeas Corpus
Remedies

Exhaustion of State

[2]

Habeas Corpus
petitions

28 U.S.C.A. § 2254(b).

In general; mixed

Habeas Corpus ,.,_ In general ; mixed
petitions

claims are not plainly meritless.
§ 2254(b) .

Federal habeas comt will ente1tain a state
prisoner's petition for federal habeas relief only
after all state remedies available for claim have
been exhausted.

28 U .S.C.A. § 2254(b).

In order to take advantage of the stay and
abeyance procedure for a mixed federal habeas
petition containing both claims that were
exhausted in state court and claims that were not
exhausted, which allows petition to be held in
abeyance while petitioner takes additional time
to exhaust the unexhausted claims in state comt,
the petitioner must show that the unexhausted

Procedural Posture(s): Appellate Review; Post-Conviction
Review.

[l]

In general; mixed

In order to take advantage of the stay and
abeyance procedure for a mixed federal habeas
petition containing both claims that were
exhausted in state court and claims that were not
exhausted, which allows petition to be held in
abeyance while petitioner takes additional time
to exhaust the unexhausted claims in state comt,
the petitioner must show good cause for his
failure to have exhausted a paiticular claim in

[Holding:] The Court of Appeals, Selya, Circuit Judge, held
that petitioner failed to demonstrate good cause required for
habeas court to grant motion for stay and abeyance.

Affirmed.

Habeas Corpus
petitions

28

[51

Habeas Corpus
petitions

28 U.S.C.A.

In general; mixed

In order to take advantage of the stay and
abeyance procedure for a mixed federal habeas
petition containing both claims that were
exhausted in state comt and claims that were not

WESTLAW © 202 1 Thomson Reuters. No claim to ori gin al U.S. Governm ent Works.

Sena

v. Kenneway, 997 F.3d 378 (2021)
exhausted, which allows petition to be held in
abeyance while petitioner takes additional time
to exhaust the unexhausted claims in state comt,
the petitioner must show that he has not engaged
in any abusive litigation tactics or intentional
delay touching upon the prosecution of the claim.
28 U.S.C.A. § 2254(b).

[6]

Habeas Corpus

Abuse of discretion occurs when material factor
deserving significant weight is ignored, when
improper factor is relied upon, or when all proper
and no improper factors are assessed, but comt
makes serious mistake in weighing them.

[IOI

28 U.S.C.A. § 2254(b ).

Const. Amend. 6;

Federal Courts . . Abuse of discretion in
general
Federal Courts
General

Questions of Law in

Ill]

Federal Courts
"Clearly erroneous"
standard of review in general

Habeas Corpus

Discretion of lower couit

In absence of a material error of law, the contours
of judicial discretion on review of the denial
of a federal habeas petition are broad, but not
absolute. ,

191

28 U.S.C.A. § 2254.

Federal Courts ..,. Abuse of discretion in
general

28 U.S.C.A. § 2254(b).

1

Habeas Corpus
petitions

In general ; mixed

When determining good cause, as required
to take advantage of the stay and abeyance
procedure for a mixed federal habeas petition
containing both claims that were exhausted in
state comt and claims that were not exhausted,
which allows petition to be held in abeyance
while petitioner takes additional time to exhaust
the unexhausted claims in state court, comts
typically gauge the scope of the petitioner's delay
and measure it against the window of opportunity

Abuse of discretion is not monolithic standard of
appellate review: within it, abstract questions of
law are reviewed de novo, findings of raw fact
are reviewed for clear error, and judgment calls
receive classically deferential reception.

[8]

In general; mixed

Federal habeas petitioner who filed mixed
habeas petition containing both a claim that
was exhausted in state court and unexhausted
claim of ineffective assistance of counsel failed
to demonstrate good cause required for habeas
comt to grant motion for stay and abeyance,
which would permit petition to be held in
abeyance so that petitioner could take additional
time to exhaust the unexhausted claim in state
court; although petitioner was not initially
represented by counsel, petitioner was capable
of acting on his own behalf, but he waited
approximately seven months before initiating
state-court motion for postconviction relief. U.S .

Discretion of lower court

The Court of Appeals reviews for abuse of
discretion the district comt's determination that
the habeas petitioner failed to show good cause,
as required to take advantage of the stay
and abeyance procedure for a mixed federal
habeas petition containing both claims that were
exhausted in state court and claims that were not
exhausted, which allows petition to be held in
abeyance while petitioner takes additional time
to exhaust the unexhausted claims in state court.

[7]

Habeas Corpus
petitions

within which to act.

[12]

1

Habeas Corpus
petitions

28 U.S.C.A. § 2254(b).

In general ; mixed

A habeas petitioner's diligence or lack of
diligence often serves as the "dominant
criterion" in analyzing whether petitioner meets
the good cause prerequisite to utilize the stay

WESTLAW © 2021 Thomson Re uters. No cla im to origin al U.S. Government Works .

2

Sena v. Kenneway, 997 F.3d 378 (2021)

and abeyance procedure for a mixed federal
habeas petition containing both claims that were
exhausted in state court and claims that were not
exhausted, which allows petition to be held in
abeyance while petitioner takes additional time
to exhaust the unexhausted claims in state court.
28 U.S.C.A. § 2254(b).

(13]

Habeas Corpus
petitions

In general; mixed

Each case must be evaluated on its own facts,
in order to determine whether habeas petitioner
demonstrated good cause, as required to take
advantage of the stay and abeyance procedure
for a mixed federal habeas petition containing
both claims that were exhausted in state comi
and claims that were not exhausted, which allows
petition to be held in abeyance while petitioner
takes additional time to exhaust the unexhausted
claims in state court, and a petitioner's delay in
filing must be viewed in light of the paiticular
circumstances.

(14)

1

Cl'iminal Law

28 U.S.C.A. § 2254(b).

Right to counsel

Under Massachusetts law, an indigent defendant
has no constitutional entitlement to the assistance
of appointed counsel in preparing or presenting
a postconviction motion for a new trial.

Habeas Corpus

[16]

Pro se or lay petitions

A prose habeas petitioner who has demonstrated
a capacity for understanding and articulating
the issues may reasonably be extended fewer
allowances than a pro se petitioner who is
hopelessly out of his depth; consequently,
because every pro se petitioner is different, the
significance of a petitioner's unrepresented status
is necessai·ily a matter of degree.
§ 2254.

28 U.S .C.A .

*380 APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF MASSACHUSETTS,
[Hon. Nathaniel M. Gorton, U.S. District Judge]
Attorneys and Law Firms
Elizabeth Prevett, Cambridge, MA, with whom Jonathan
Scott Lauer was on brief, for appellant.
Gabriel Thornton, Assistant Attorney General, with whom
Maura Healey, Attorney General of Massachusetts, was on
brief, for appellee.
Before Lynch, Selya, and Kayatta, Circuit Judges.

Opinion
SELYA, Circuit Judge.

(151

Habeas Corpus
petitions

In general; mixed

A district court charged with making a
good cause determination, as required to take
advantage of the stay and abeyance procedure
for a mixed federal habeas petition containing
both claims that were exhausted in state court
and claims that were not exhausted, which allows
petition to be held in abeyance while petitioner
takes additional time to exhaust the unexhausted
claims in state court, must factor in a habeas
petitioner's pro se status, as well as his attributes,
skill sets, and circumstances, into its decisional
calculus.

28 U.S.C.A . § 2254(b).

*381 Federal habeas review for state prisoners is subject to a
one-year limitations period, which generally runs either from
the conclusion of direct review or the expiration of the time
28 U .S.C. § 2244( d)
allotted for seeking direct review. See
(l)(A) . The Supreme Court has recognized, though, that
this one-year period sometimes may not provide a sufficient
interval for the exhaustion of a state prisoner's claims in state
comi. See
Rhines v. Weber, 544 U.S. 269, 275 , 125 S.Ct.
1528, 161 L.Ed .2d 440 (2005) . To guard against injustice,
the Court has approved a procedure - commonly known
as a motion for a stay and abeyance - through which a
state prisoner may file his federal habeas petition and seek
additional time, subject to certain preconditions, to exhaust
his state remedies . See

id. at 277-78, 125 S.Ct. 1528 . One

WESTLAW © 2021 Thomson Reuters. No claim to original U.S . Governm ent Works .

3

Sena v. Kenneway, 997 F.3d 378 (2021)

such precondition requires the petitioner to show good cause
for his failure to have exhausted a particular claim or claims
in state court. See '

id. at 277, 125 S.Ct. 1528.

In this case, the district court, rejecting a magistrate judge's
recommendation, held that petitioner-appellant iDennis
Sena, a state prisoner, had not satisfied the good cause
requirement. 1 The court proceeded to deny the petitioner's
motion for a stay in abeyance and dismissed his habeas
petition. See Sena v. Kenneway. No . 19-10254, 2020 WL
1429849, at *2-3 (D. Mass . Mar. 24, 2020). The petitioner
appeals. Concluding, as we do, that the district court acted
within the wide margins of its discretion, we affnm.

I. BACKGROUND
We sketch the relevant facts and travel of the case. Our
tale begins at a convenience store in Boston, Massachusetts,
where a brawl erupted in the early hours of May 19, 2012.
One participant, Zachary Fritz-Kill, sustained knife wounds,
and an individual who attempted to intervene was rewarded
by having his tires slashed.
When the police arrived at the scene, at least one eyewitness
identified the petitioner as the knife-wielding perpetrator.
Fritz-Kill, who had consumed a heady mix of drugs and
alcohol in the hours preceding the brawl, was taken to a
nearby hospital. Although Fritz-Kill had previously been
diagnosed as having a bipolar disorder, he attributed his
erratic behavior at the convenience store to his use of cocaine.
The petitioner was subsequently indicted by a Massachusetts
grand jury, which charged him with assault and battery
with a dangerous weapon, see
Mass . Gen. Laws ch. 265 ,
§ l 5A(b ); assault and battery with a dangerous weapon,
causing serious bodily injury, see id. r ch. 265 , § I SA( c)
(i); and malicious destruction of property, see id. ch. 266, §
127. All three counts were coupled with a charge that the
petitioner was an "habitual criminal," having been convicted
and sentenced to terms of immurement of more than three
years on at least two earlier occasions. 2 Id. ch. 279, § 25(a).
*382 The "habitual criminal" designation paved the way
for the imposition of statuto1y maximum sentences should
the petitioner be convicted of the felonies charged in the
indictment. See id.
Maintaining his innocence, the petitioner proceeded to trial
in Suffolk County Superior Court in March of 2015. The

Commonwealth relied on witness and victim testimony
(including the testimony of Fritz-Kill, who identified the
petitioner as his attacker). The defense tried to discredit
Fritz-Kill's testimony by emphasizing how mind-altering
substances may have affected his recollection. But when
the defense attempted to introduce expert testimony to this
effect, the trial court rejected the proffer-which it variously
characterized as conjectural, irrelevant, and untin1ely.
The first trial proved indecisive: the jury deadlocked, and
the trial court declared a mistrial. A second trial ensued
'
and the trial court (in the person of the same trial justice)
again excluded the petitioner's proffered expert testimony.
The second jmy acquitted the petitioner on the propertydestruction count but found him guilty on the other two
counts. The petitioner waived his right to have a jmy
adjudicate his "habitual criminal" status; the trial court found
the designation apt; and the court sentenced the petitioner to
the statutmy maximum for each offense of conviction - ten
years for assault and batte1y with a dangerous weapon and
fifteen years for assault and battery with a dangerous weapon,
causing serious bodily injury - to run concurrently.
The petitioner appealed to the Massachusetts Appeals Court
(the MAC) on diverse grounds. As relevant here he
'
maintained that the trial court abused its discretion in
excluding his proffered expert witness. In fo1mulating this
claim, though, the petitioner's appellate counsel challenged
only the trial court's determination that the testimony was
not relevant. No challenge was advanced as to the concurrent
finding that the proffer was untimely, notwithstanding that
the trial court had cited timeliness as a separate (and
independently sufficient) ground for its exclusion of the
evidence.
The MAC treated this omission as "essentially conced[ing]
that the evidence was not timely" and deemed the claim
waived. Commonwealth v. Senna, 2017 WL 4856593 , at
*2 (Mass. App . Ct. 20 I 7) (unpublished table decision). The
Supreme Judicial Court (the SJC) denied the petitioner's
application for leave to seek further appellate review
(ALOFAR) on December 21, 2017, see Commonwealth v.
Senna, 94 N.E.3d 853 (Mass. 2017) (table decision), thus
leaving the MAC decision as the final state-comi decision.
Undaunted by the SJC's denial of his ALOFAR, the petitioner
requested that the Massachusetts public defender agency, the
Committee for Public Counsel Services (CPCS), provide him
with new counsel to file a motion for a new trial under Rule

WESTLAW © 202 1 Thomson Reuters. No cla im to orig inal U.S. Government Wo rks.

4

Sena v. Kenneway, 997 F.3d 378 (2021)

30 of the Massachusetts Rules of Criminal Procedure. 3 This
rule authorizes the granting of a new trial to persons confined
in derogation of either federal or state law, see Rodriguez v.
Spencer, 412 F.3d 29, 33-34 (1st Cir. 2005), and represents
the "exclusive *383 vehicle for postconviction relief' in
the Massachusetts state courts after direct review has been
exhausted, id . at 34 (quoting , Leaster v. Commonwealth,
385 Mass . 547, 432 N.E.2d 708 , 709 (1982)). CPCS declined
the petitioner's request and notified him on June 18, 2018, that
he would have to proceed pro se. The agency apparently based
this decision on input from the petitioner's erstwhile appellate
counsel, who advised it that a Rule 30 motion was not
warranted because she already had raised the expert testimony
issue on direct appeal. She failed to mention, however, that
incomplete argumentation - the failure to challenge the
timeliness of the proffer- led the MAC to dismiss the claim
as waived.
The petitioner responded by filing a complaint against his
former appellate counsel with the Massachusetts Board of
Bar Overseers (the Board). At the same time, he beseeched
CPCS to reconsider. On February 6, 2019, CPCS yielded
to the petitioner's importunings and assigned him state postconviction counsel. His new lawyer detennined that the
petitioner could raise potentially meritorious issues in a Rule
30 motion, including a claim that his former appellate counsel
rendered ineffective assistance by causing the unintentional
forfeiture of a potentially viable ground for appeal (the trial
comt's exclusion of the proffered expe1t testimony).
Two days after the appointment of his new state
postconviction counsel, the petitioner, acting pro se, filed
a habeas petition in the United States District Court for
28 u.s.c. § 2254.
the District of Massachusetts. See
This petition, submitted approximately six weeks before the
expiration of the one-year federal limitations period, named
the superintendent of the correctional institution in which the
petitioner was incarcerated as the respondent and asse1ted
eight distinct grounds for relief. Simultaneous with this
submission, the petitioner moved to stay the habeas petition
and hold it in abeyance. This request stemmed from what the
petitioner deemed to be the "mixed" nature of his petition,
which in his view included both exhausted and unexhausted
claims (his ineffective assistance of appellate counsel claim
being among the latter). 4 See Neverson v. Bissonnette, 261
F.3d 120, 123 (1st Cir. 2001) (citing t Rose v. Lundy, 455
U.S. 509,522, 102 S.Ct. 1198, 71 L.Ed.2d 379 (1982)).

[1] We pause at this juncture to put the significance of the
"mixed" nature of the petition into perspective. Federal law
incorporates the doctrine that a federal habeas court will
entertain a state prisoner's petition for habeas relief "only
after all state remedies available [for the claim] have been
exhausted."
Ex parte Hawk, 321 U.S. 114, 117, 64 S.Ct.
448, 88 L.Ed. 572 (1944) (per curiam). Although Congress
codified this doctrine in 1948, see Act of June 25, 1948, ch.
646, § 1, 62 Stat. 869, 967 (current version at

I

1

28 U.S .C.

§ 2254(b)- 1 (c)), it remained unce1tain whether a federal
habeas court could adjudicate petitions that contained a mix of
both exhausted and unexhausted claims. The Supreme Comt
resolved this uncertainty in

Lundy. See

455 U.S. at 522,

102 S.Ct. 1198 . The
Lundy Court construed the exhaustion
principle as "[r]equiring [the] dismissal" of mixed petitions.
Id. at 519, 102 S.Ct. 1198 .
Withal, the Court did not demand that federal habeas comts
dismiss such mixed filings wholesale. As an alternative, a
district court could allow the petitioner to *384 withdraw
id . at 520, l 02 S.Ct. 1198. Those
unexhausted claims. See
petitioners who opted for dismissal (without prejudice) could
later "come back to federal court to present their perfected
petitions with relative ease."
Rhines, 544 U.S. at 274,
125 S.Ct. 1528. This structure, though, became problematic
with the advent of new legislation. The Antiterrorism and
Effective Death Penalty Act of 1996 (AEDPA) codified the
strict exhaustion requirement articulated in
28 U.S.C. § 2254(b)(l)(A), and added a one-year statute
oflimitations for federal habeas petitions, see
2244( d)(I )(A).

1

28 U.S.C. §

[2] The interplay between the exhaustion requirement and
this newly enacted limitations period created a potential
catch-22: habeas petitioners whose "timely but mixed
petition[s]" were dismissed by federal comts for want of
exhaustion might, depending on the timing of the dismissal,
find themselves without adequate time to exhaust their statecomt remedies and still return within the limitations period
to federal comt.
Rhines, 544 U.S. at 275 , 125 S.Ct. 1528.
Necessity is said to be the mother of invention, see Plato,
The Republic of Plato 369C (Benjamin Jowett trans., Project
Gutenberg 2017) (1894), and federal courts soon devised a

WESTLAW © 2021 Thom so n Reuters. No claim to original U.S. Governm ent Works .

5

Sena v. Kenneway, 997 F.3d 378 (2021)

way to alleviate the harsh effects of this catch-22. They began
to stay mixed habeas petitions and to hold them in abeyance
in lieu of dismissal. See, ~ . Gaskins v. Duval, 336 F. Supp.
2d 66, 68 (D. Mass. 2004); Ki lburn v. Maloney, 164 F. Supp.
2d 117, 119 (D. Mass . 200 I). This procedure provided a
mechanism through which federal habeas petitioners could
satisfy exhaustion obligations without defaulting on AEDPA's
one-year limitations period.
[3]

[4]

[5] In

Rhines, the Supreme Comt approved

this use of the stay-and-abeyance procedure, see
id. at
278, 125 S.Ct. 1528, but stipulated that district courts should
only resort to it in "limited circumstances,"
id. at 277,
125 S.Ct. 1528. The Court set out three preconditions for
the grant of a stay and abeyance to a habeas petitioner. First,
the petitioner must show good cause for his failure to have
exhausted a particular claim in state court. See I id. Second,
the petitioner must show that the particular claim is not
"plainly meritless." 1 Id. Third, the petitioner must show
that he has not engaged in any "abusive litigation tactics or
intentional delay" touchjng upon the prosecution of the claim.
1

Id. at 278, 125 S.Ct. 1528.

The erection of this tripaitite framework brings us back to
the case at hand. The district court appointed counsel for
the petitioner and referred both his stay-and-abeyance motion
and the respondent's motion to dismiss to a magistrate judge.
The petitioner subsequently withdrew six of the eight claims
contained in his habeas petition. The petitioner's remaining
two claims included hls unexhausted ineffective assistance
of counsel claim and an exhausted claim. 5 After a hearing,
the magistrate judge issued a report and recommendation, in
which she found all three elements of the Rhines framework
satisfied and recommended granting the stay and abeyance
and denying the motion to dismiss. Pettinently, she reasoned
that the petitioner's time-consuming efforts to secure postconviction counsel comprised good cause for his failure to
exhaust state-court remedies.
The respondent objected, and the district coutt- on de novo
review, see Fed. R. Civ. P. 72(b)(3) -rejected the magistrate
judge's recommendation. Although the court acknowledged
that
Rhines "did not define precisely what constitutes
' good cause' " for a failure to exhaust, it determined *385
that the petitioner had not made the required showing. Sena,
2020 WL 1429849, at *2. In the coutt's estimation, the

considerations cited by the magistrate judge were insufficient
to excuse the petitioner's prolonged inaction, particularly in
light of evidence that he could competently self-advocate for
the merits ofhis ineffective assistance claim. See id. The court
stated :
[P]roceeding filQ se "does not excuse a petitioner from the
exhaustion requirement."
[Lundy]. 455 U.S. at 520 [ I 02
S.Ct. 1198] ("Just as filQ se petitioners have managed to use
the federal habeas machinery, so too should they be able
to master this straightforward exhaustion requirement.") ....
Futthermore, Sena filed a habeas petition filQ se in this
Comt just two days after counsel was appointed to
pursue his claims in state comt. In that petition, Sena
a1ticulated his claim of ineffective assistance of counsel
which demonstrates that he had both the opportunity and
ability to pursue state coutt collateral relief while awaiting
the appointment of counsel. His failure to do so for more
than six months while he sought the appointment of counsel
does not amount to "good cause" sufficient to excuse
compliance with the exhaustion requirement.
Id. The comt proceeded to deny the stay-and-abeyance
motion and - since the petitioner made no request to
continue on his lone exhausted claim, see supra note 4 dismissed the mixed habeas petition for want of exhaustion.
See Sena, 2020 WL 1429849, at *2-3 . This timely appeal
followed.

II. ANALYSIS
The district court's decision turned solely on what it
determined to be the petitioner's failure to satisfy the good
cause element of the Rhines framework, 6 see Sena, 2020 WL
1429849, at *2, and the petitioner's appeal focuses exclusively
on that element.
[9] We review the district court's
[6]
171 [8]
determination that the petitioner failed to show good cause

R hines, 544 U.S . at 278, 125
for abuse of discretion. See
S.Ct. 1528 . Abuse of discretion is not a monolithic standard:
"within it, abstract questions of law are reviewed de novo,
findings of raw fact are reviewed for clear etrnr, and judgment
calls receive a classically deferential reception."
Riva v.
F icco, 615 F.3d 35, 40 (1st Cir. 2010). In the absence of a
material error of law - and no such error is evident here
- the contours of judicial discretion are "broad - but ...
not absolute."

Indep. Oil & Chem. Workers of Quincy,

WESl LAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Sena v. Kenneway, 997 F.3d 378 (2021)

Inc. v. Procter & Gamble Mfg. Co. , 864 F.2d 927, 929 (1st
Cir. 1988). "Abuse occurs when a material factor deserving
significant weight is ignored, when an improper factor is
relied upon, or when all proper and no improper factors are
assessed, but the court makes a serious mistake in weighing
them."

1

Id .

' Rhines supplies the beacon by which we must steer. Even
so, the Court's opinion says little about what circumstances
may suffice to excuse a habeas petitioner's failure to
exhaust state-court remedies ahead of his federal filing. After
l

Rhines, the Supreme Court has addressed the stay-and-

abeyance good cause requirement only once. See l Pace
v. DiGuglielmo, 544 U .S. 408, 416, 125 S.Ct. 1807, 161
L.Ed.2d 669 (2005). There, the Court stated, in dictum, that
even though a petitioner had not acted *386 diligently,
"reasonable confusion about whether a state filing would be
timely will ordinarily constitute 'good cause' for [a petitioner]
to file in federal court" for a stay and abeyance.

1

Id.

Other reported cases do not offer much fmther elucidation.
See,~, I Dixon v. Baker, 847 F.3d 714, 720 (9th Cir. 2017)
("The caselaw concerning what constitutes 'good cause'
under

Rhines has not been developed in great detail.");

Heleva v. Brooks, 581 F.3d 187, 192 (3rd Cir. 2009)
(concluding that "[t]he full range of circumstances in which
a habeas petitioner is eligible for stay-and-abeyance is not
yet clear"). Our own jurisprudence on the subject is likewise
r

thin. We have held that the strategic omission of claims on
direct appeal does not constitute good cause for the failure to
exhaust those claims. See
Clements v. Maloney, 485 F.3d
158, 170-71 (1st Cir. 2007). So, too, we have held that good
cause was not shown when a failure to exhaust resulted from
"[i]gnorance of the law." Josselyn v. Dennehy. 475 F.3d 1,
5 (1st Cir. 2007) . Impottantly, however, Josselyn involved a
petitioner who was represented by counsel throughout, and
we reserved the issue of how strictly this holding should be

on the lengthy interval during which the petitioner could have
filed his Rule 30 motion in the state court, but did not. See
Sena, 2020 WL 1429849, at *2. That delay was an appropriate
integer in the good cause calculus: when determining good
cause in a variety of contexts, courts typically gauge the scope
of the moving party's delay and measure it against that party's
window of oppo1tunity within which to act. See, ~ .
Steir
v. Girl Scouts of the USA, 383 F.3d 7, 12 (1st Cir. 2004)
("Regardless of the context, the longer a plaintiff delays, the
more likely the motion to an1end [a complaint] will be denied
[for lack of good cause] ... .");
Gen. Cont. & Trading Co.
v. Interpole, Inc., 899 F.2d 109, 1)2 (1st Cir. 1990) (holding
tirning of motion relevant to setting aside ent1y of default for
good cause).

(12] In this case, the petitioner made no move to initiate
state-comt proceedings during the seven-plus months after
CPCS notified him that it would not furnish him with
representation. The district court reasonably could interpret
this extended quiescence as militating against a showing
of good cause. After all, a movant's "diligence or lack of
diligence" often serves as the "dominant criterion" in a good
cause analysis. Miceli v. JetBlue Airways Corp .. 914 F.3d 73 ,
86 (1st Cir. 2019) (citation omitted).
(13) Of course, each case must be evaluated on its own
facts, and a movant's delay must be viewed in light of
the particular circumstances. See, ~ .
Gen. Cont. &
Trading Co., 899 F.2d at 1.12 (disclaiming any "mechanical
formula" for determining good cause). Here, for instance, the
petitioner asserts that the district comt should have treated
his pursuit of appointed counsel as a proxy for diligence.
CPCS's recalcitrance, he says, was a delay-creating external
circumstance that cannot fairly be attributed to him. See,
~ . Doe v. Jones, 762 F.3d 1174, 1182 (10th Cir. 2014);
Jalowiec v. Bradshaw, 657 F.3d 293, 304--05 (6th Cir.
20 I I). Relatedly, the petitioner says that his former appellate
counsel's misleading representation to CPCS exacerbated this
external factor.

*387 [14] The petitioner's proposed application of this tenet
to his situation misses the mark. The difficulties that the
petitioner encountered in his dealings with CPCS, though
strictly as to "trap the unwary ll!:Q se petitioner").
obviously frustrating, did not negate his ability to file a Rule
30 motion. The petitioner was free to proceed pro se to file
[101
Ill] Against this mottled backdrop, we tum to the his motion, and Massachusetts law makes pellucid that "an
district court's finding that the petitioner failed to satisfy the
indigent defendant has no constitutional entitlement to the
good cause requirement. The comt placed substantial weight
assistance of appointed counsel in preparing or presenting
applied to pro se petitioners. See id. at 5 n.3; cf.
Rhines,
544 U.S. at 279, 125 S.Ct. 1528 (Stevens, J., concmTing)
(warning against construing the good cause requirement so

WESTLAW © 202 1 Thomson Reuters. No cla im to origin al U. S. Governm ent Wo rks.

7

Sena v. Kenneway, 997 F.3d 378 (2021)

a postconviction motion for a new trial."
Parker v.
Commonwealth, 448 Mass . 1021 , 863 N.E.2d 40, 42 (2007).
In sum, the petitioner was bound by the same general set
of procedural expectations that apply to litigants represented
by counsel. See

Lundy. 455 U.S . at 520, 102 S.Ct. 1198;

see also I Delaney v. Matesanz, 264 F.3d 7, 15 (1st Cir.
2001) ("While judges are generally lenient with pro se
[habeas petitioners], the Constitution does not require comis
to unde1iake heroic measures to save pro se litigants from the
readily foreseeable consequences of their own inaction.").
[15) This is not to say that the petitioner's pro se status is
unimpo1iant. A district comi charged with making a good
cause determination must factor a habeas petitioner's pro se
status, as well as his attributes, skill sets, and circumstances,
into its decisional calculus. See Ellison v. Rogers, 484 F.3d
658 , 662 (3d Cir. 2007); see also Josselyn , 4 75 F.3d 1 at 5 n.3 .
[161 Because pro se litigants are not fungible, however,
each case must be evaluated on its own facts. See SAi v.
Transp. Sec. Admin., 843 F.3d 33, 36 ( 1st Cir. 201-6); see also

Pruitt v. Mote, 503 F.3d 647, 655 (7th Cir. 2007). A pro
se litigant who has demonstrated a capacity for understanding
and a1iiculating the issues may reasonably be extended fewer
allowances than a pro se litigant who is hopelessly out of his
depth. See I Delaney. 264 F.3d at 15 ; Evangelista v. Sec'y
of HHS, 826 F.2d 136, 142-43 (1st Cir. 1987). Consequently,
because every pro se litigant is different, the significance of
his unrepresented status is necessarily a matter of degree.
In this instance, the period of delay was substantial - and
the sheer length of the delay militated against a finding of
good cause. See Guzman-Ruiz v. Hernandez-Colon, 406 F.3d
31, 35 (1st Cir. 2005) (describing three-month delay as fatal
to claim that good cause existed for failure to file timely
opposition to summary judgment motion). With this in mind,
we think that the district court acted within the wide margins
of its discretion in determining that the petitioner could - and
should-have gone forward with his Rule 30 motion despite
his pro se status. Although the petitioner had no control over
CPCS's grudging attitude toward the appointment of counsel,
nothing impeded him from acting in his own behalf while he
was lobbying CPCS to reconsider its initial turn down. Here,
moreover, it is critical to the analysis that the district court
suppo1iably found that the petitioner was capable of acting

to his own behoof at all times after his receipt of CPCS's
rejection letter. 7 See Sena, 2020 WL 1429849, at *2.
In this regard, the court attributed great significance to the
habeas petition, filed pro se, which competently aiiiculated
the petitioner's claims (including his ineffective assistance
of counsel claim). This *388 petition, the comi concluded,
adequately evinced the petitioner's ability "to pursue state
comi collateral relief while awaiting the appointment of
counsel." Id. Such a conclusion was reasonable under
the circumstances: placed along the continuum of pro se
submissions, the habeas petition fairly can be described as
well-crafted.
If more was needed, the petitioner's complaint to the Board written sho1ily after the petitioner received CPCS's rejection
letter - similai·ly reflected his ability to self-advocate. In it,
the petitioner lucidly set fmih arguments as to how his former
attorney "mishandled" vai·ious issues, along with an accurate
chronology of the events that undergirded his ineffective
assistance claim. Fwiher, the letter featured appendices of
"case law ... [and] references to the exact pages from [trial]
transcripts to supp01i each issue."
To cinch the matter, the petitioner's initial request to CPCS
for the appointment of counsel was for the expressed purpose
of filing a Rule 30 motion, and CPCS's June 2018 rejection
letter advised the petitioner specifically that he could pursue
that motion without an attorney. CPCS's letter ensured that
the petitioner knew of his opportunity to proceed pro se. See
O'Connell v. Hyatt Hotels of P.R., 357 F.3d 152, 155 (1st
Cir. 2004) (finding no good cause for delay when plaintiffs
were "aware of their [procedural] obligation"); cf. Ellison,
484 F.3d at 662 (deeming habeas petitioner not "unwary"
when he had been apprised of how to pursue post-conviction
relief). From the petitioner's materials, coupled with the
length of the delay and the fact that he was no stranger to
the criminal justice system, the district court plausibly could
conclude - as it did- that he was capable of proceeding pro
se with his Rule 30 motion in a more timely fashion.
r

The petitioner attempts to undermine the inferences drawn
by the district court by characterizing the cause of his delay
as "reasonable confusion" about timing. This characterization
draws on dictum from r Pace, 544 U.S . at 416, 125
S.Ct. 1807, but the attempted analogy compares plums
to pomegranates. The
Pace Court expressed approval
(hypothetically) for a stay and abeyance for an imagined

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Wo rks .

8

Sena v. Kenneway, 997 F.3d 378 (2021)

habeas petitioner who was "reasonably confus[ ed]" about
how state courts would apply recently enacted filing
prerequisites to an application for post-conviction relief.
Id . That is a far cry from the case at hand. The Rule
30 procedure is straightforward and its essentials (including
the applicable filini requirements) have remained constant
since at least 1979. See Reporter's Notes to Mass. R.
Crim. P. 30(a) (delineating 1979 adoption of simplified postconviction procedure). Nor was there any reason to doubt the
applicability of the one-year federal limitations period.
The petitioner also complains that he would have had
great difficulty in mounting an ineffective assistance of
counsel claim pro se. The district court disagreed, see Sena,
2020 WL 1429849, at *2, and its conclusion appears to
be a reasoned choice between plausible alternatives. The
petitioner's correspondence to the Board shows that the
petitioner had the ability to describe his former appellate
counsel's allegedly deficient performance clearly - and that
was the essence of his ineffective assistance claim.
Battling on, the petitioner invokes a provision of
Massachusetts law to the effect that any grounds for
postconviction relief not included in a defendant's Rule 30
motion are deemed waived. See Mass . R. Crim. P. 30(c)(2).
From this statiing point, the petitioner asserts that he risked
forfeiting unidentified claims by filing his Rule 30 motion
without the benefit of *389 counsel. This assertion is triply
flawed. For one thing, it overlooks that, under Massachusetts
practice, a Rule 30 motion may be amended and, in any event,
the state court may permit the filing of second or successive
Rule 30 motions. See id.; Commonwealth v. Ellis, 475 Mass.
459, 57 N .E.3d 1000, 1018 (2016). For another thing, the
expectation established by the I Lundy Court, r 455 U.S .
at 520, 102 S.Ct. 1198 - that pro se habeas petitioners must
be held accountable for navigating the usual channels of the
"federal habeas machinery," including the strict exhaustion
requirement- encompasses the reality that some petitioners
will have more challenging claims to advance than others.
Third, and finally, the petitioner's assetiion proves too much:
virtually any pro se litigant can be said to be at increased
risk of forfeiture when contrasted with one represented by
counsel. See I Evangelista, 826 F.2d at 143 ("It is rare
indeed that veteran counsel ... cannot train an eagle eye to
discern something that could have been done better, or more

convincingly, or not at all."); Yeoman v. Pollard, 875 F.3d 832,
836 (7th Cir. 2017). If "good cause" were to be construed as
broadly as the petitioner urges, any habeas petitioner could
justifiably delay his filing for as long as he maintained even
the faintest hope ofretaining counsel.
When all is said and done, the district comi's determination
that good cause did not exist for the petitioner's delay
rests on an assessment that is inherently fact-sensitive. We
think that this determination passes muster when viewed
through the deferential prism of the standard of review. For
aught that appears, the district court took into account all
the proper factors (and no improper factors) when working
its decisional calculus. Although the question is close, we
discern no principled basis for second-guessing the district
comi's determination.
The petitioner has one last shot in his sling. He says, in effect,
that even if the district comi considered all the proper factors
and no improper ones, it nonetheless seriously misgauged the
appropriate balance. See l Indep. Oil & Chem. Workers,
864 F.2d at 929. In his view, the court should have afforded
greater weight to factors such as his pro se status and his
blamelessness for the difficulty in securing appointed counsel
and less weight to the length of the delay in moving forward
with a Rule 30 motion. Here, however, striking the good cause
balance was "susceptible of two rational (though opposite)
conclusions." United States v. Myers, 294 F.3d 203 , 208
(1 st Cir. 2002). In such circumstances, "the tie-breaker often
will be the standard of review." Id. This is such a case.
Given the evidence of the petitioner's competence, the lack
of any impediment to his proceeding pro se in state comi,
his awareness that a Rule 30 motion had to be filed, and the
length of time during which the petitioner eschewed the filing
of such a motion, we are not at liberty to superimpose our
judgment upon that of the district court.

III. CONCLUSION
We need go no further. For the reasons elucidated above, the
judgment of the district comi is
Affirmed.

All Citations

997 F.3d 378

WESTLAW © 2021 Thomson Reuters. No claim to original U. S. Governm ent Works.

9

Sena v. Kenneway, 997 F.3d 378 (2021)

Footnotes
The petitioner's name is spelled in the record both as "Sena" and "Senna". Like the district court, we employ
throughout the spelling used by the petitioner in his habeas petition.
2

Sena had previously been convicted of armed assault with intent to murder, see

I

Mass. Gen. Laws ch .

265, § 18(b); possession of a dangerous weapon , see id. ch. 269 § 10(b); distribution of cocaine, see id. ch.
94C, § 32A(a); armed assault with an intent to rob, see id.

ch . 265, § 18(b); and possession of a firearm

without a license, see id. ch. 269, § 1 0(a).
3

The record does not contain the exact date that the petitioner first contacted CPCS but we assume, favorably

4

to him, that he made his request for the appointment of counsel soon after his ALO FAR was denied.
The Commonwealth disputes the characterization of the petition as "mixed," suggesting that none of the

5
6

7

petitioner's claims have been exhausted. We assume, as did the district court, that the petition contained
both exhausted and unexhausted claims.
The exhausted claim is not at issue here, and any discussion of it would be superfluous.
The district court did not comment on the magistrate judge's recommended finding that the petitioner had
not engaged in any abusive litigation tactics or intentional delay. See Sena, 2020 W L 1429849, at *2. The
court expressed some skepticism about the recommended finding that the petitioner's ineffective assistance
of counsel claim was not plainly meritless, see id. , but did not resolve the issue.
Of course, the petitioner actually had a period of roughly thirteen months within which to act between the
date that the SJC denied his ALOFAR (December 21, 2017) and the date on which he filed the stay-andabeyance motion (February 8, 2019). The district court, however, seems to have given less weight to the
portion of this period that preceded his receipt of CPCS's rejection letter (which was dated June 18, 2018) .

End of Document

© 2021 Th omson Reuters. No claim to original U.S. Government Works .

WESTLAW © 2021 Thomson Reuters . No claim to 01·igin al U.S. Government Works.

10

